U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 21, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Territory of Guam v. United States of America,
S.Ct. No. 20-382

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September
16, 2020, and placed on the docket on September 24, 2020. The government’s response is due
on October 26, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 25, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0382
TERRITORY OF GUAM
USA

GREGORY GEORGE GARRE
LATHAM & WATKINS LLP
555 11TH STREET, NW
SUITE 1000
WASHINGTON, DC 20004
202-637-2200
GREGORY.GARRE@LW.COM

